OFFICE OF INSPECTOR GENERAL


WORLDWIDE AUDIT OF THE
PEPFAR-FUNDED ACTIVITIES
AND COMMODITIES FOR THE
PREVENTION OF MOTHER-TO-
CHILD TRANSMISSION OF HIV
AUDIT REPORT NO. 9-000-10-005-P
March 10, 2010




WASHINGTON, DC
Office of Inspector General


March 10, 2010

MEMORANDUM

TO:                  GH/OHA Director, Robert Clay

FROM:                IG/A/PA Director, Steven H. Bernstein [Michael W. Clinebell for] /s/

SUBJECT:             Worldwide Audit of the PEPFAR-Funded Activities and Commodities for the
                     Prevention of Mother-to-Child Transmission of HIV (Report No. 9-000-10-005-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report in finalizing the audit report and have included your response in
appendix II of the report.

Recommendations were made at the mission level to address the problem areas noted in the
report. Therefore, this report does not make any recommendations.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during this audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.govoig
CONTENTS
Summary of Results.….…………………………………………………………...….…..1


Background……………...………………………………………………………………….2


Audit Objectives…………..…………………………………………………………………3


Audit Findings


Did USAID activities for the prevention of mother-to-child transmission of HIV
contribute toward meeting mandated targets, and what has been the
impact?..………..……………………………………………………………………….…..4


Did USAID procure, store, and distribute commodities for the prevention of
mother-to-child transmission of HIV to help ensure that intended results were
achieved, and what has been the impact ? ………………………………...……….…..7


Evaluation of Management Comments………………..…………………………......10


Appendix I – Scope and Methodology…………………..…………….………….…..11


Appendix II – Management Comments…………………………………………….....13


Appendix III – Audit Reports Issued….……………………………………………….14
SUMMARY OF RESULTS
The U.S. Government’s efforts to combat the HIV/AIDS epidemic are executed through
the President’s Emergency Plan for AIDS Relief (PEPFAR), signed into law in 2003, and
a subsequent reauthorization in 2008. 1 This report addresses the prevention component
of PEPFAR’s three goals of treatment, prevention, and care; specifically, the Prevention
of Mother-to-Child Transmission (PMTCT) of HIV (see page 2).

This report summarizes the results of the Office of Inspector General audits conducted
at four selected missions: Ethiopia, Kenya, Nigeria, and Tanzania. These four countries
received about $39 million in fiscal year (FY) 2008 funding for PMTCT activities (see
page 3).

The objectives of this audit were to determine (1) whether USAID activities for PMTCT of
HIV contributed toward meeting mandated targets, and to assess what impact the
activities have made; and (2) whether USAID procured, stored, and distributed
commodities for the PMTCT of HIV to help ensure that intended results were achieved,
and to assess the impact the activities have made (see page 3).

At the four countries audited, USAID efforts did contribute toward meeting mandated
targets, and the results have had a positive impact on preventing the transmission of HIV
from pregnant women to their children. While PMTCT activities have had a positive
impact, in each of the four countries audited, USAID was not able to measure the impact
of the PMTCT activities. Further, in the four countries visited, USAID’s PMTCT activities
faced numerous challenges, such as data quality deficiencies, incomplete performance
management plans, lack of technical oversight, and failure to conduct thorough site visits
(see pages 4–6).

For PMTCT commodities, the audit found that USAID achieved its intended results
during FY 2008. It procured the desired commodities, and upon arrival in country the
commodities were inventoried, segregated, stored, and distributed to intended
beneficiaries. However, commodity management problems were found in each of the
four countries audited. Examples included shortages of commodities at some health
centers, inaccurate and incomplete inventory records, and mislabeling of test kits as
antiretroviral medication. In spite of these problems, PMTCT activities had a positive
impact as pregnant women had access to test kits to determine their HIV status. If
results were positive, they were further able to attain antiretroviral prophylaxis treatments
to prevent the transmission of HIV to their unborn children. Without USAID-provided
commodities, these services could not have been provided (see pages 7–9).

Recommendations were made at the mission level to address the problem areas noted
above. Therefore, this report does not make any recommendations. USAID’s Bureau of
Global Health, Office of HIV/AIDS, concurred with the findings in the report.
Management’s comments are presented in their entirety in appendix II.

1
  The PEPFAR authorization is referred to as, “United States Leadership against HIV/AIDS,
Tuberculosis and Malaria Act of 2003, Public Law 108-25.” The reauthorization is referred to as,
“Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria reauthorization Act of 2008, Public Law 110-293.”


                                                                                              1
BACKGROUND
The U.S. Government’s combined efforts to combat the HIV/AIDS epidemic are
executed through the President’s Emergency Plan for AIDS Relief (PEPFAR) signed into
law in 2003, and a subsequent reauthorization in 2008, which authorizes up to $48
billion to combat global HIV/AIDS, tuberculosis, and malaria. Of the $48 billion, $39
billion is authorized specifically for HIV/AIDS programs.

The Office of the U.S. Global AIDS Coordinator, part of the State Department, provides
policy direction to U.S. Government agencies involved with PEPFAR. PEPFAR is
implemented collaboratively by in-country teams made up of staff from USAID, the
Department of State, the Department of Health and Human Services, and other
agencies. USAID is one of the lead government agencies involved with PEPFAR. In
fiscal year (FY) 2009, USAID administered 60 percent of all PEPFAR funds, amounting
to about $3.4 billion. The Director of Global Health’s Office of HIV/AIDS provides the
technical leadership for USAID’s HIV/AIDS program.

PEPFAR, in partnership with host nations, has three overall goals through FY 2013:

   •   Treatment for at least 3 million people
   •   Prevention of 12 million new infections
   •   Care for 12 million people, including 5 million orphans and vulnerable children

Additionally, to build sustainability, PEPFAR plans to support training of 140,000 new
health care workers in HIV/AIDS prevention, treatment, and care.

This report addresses the prevention component of PEPFAR’s goals, specifically
Prevention of Mother-to-Child Transmission (PMTCT) of HIV. During pregnancy, HIV-
infected women are at risk of transmitting HIV to their unborn children and PMTCT
activities attempt to prevent this infection from occurring. USAID estimates that 90
percent of children living with HIV acquired the virus before or during birth or through
breastfeeding. Figure 1 shows the various PMTCT interventions that attempt to prevent
an HIV-infected, pregnant woman from transmitting the virus to her child.

                         Figure 1. USAID PMTCT Interventions




Source: USAID Website



                                                                                         2
This report summarizes the results of four separate audits conducted in Ethiopia, Kenya,
Nigeria, and Tanzania. As depicted in table 1, the four audits reviewed PMTCT activities
that received approximately $39 million in FY 2008.

       Table 1. Selected Countries and PMTCT Amounts Received in FY 2008
                              Prevention of Mother-to-Child
                                 Transmission Amounts
                                   Received in FY 2008
                                           Activities Audited
                             Country         ($ in millions)
                             Ethiopia               6.3
                             Kenya                 11.4
                             Nigeria                7.5
                             Tanzania              13.8
                             Total              $39.0



AUDIT OBJECTIVES
As part of the Office of Inspector General’s annual audit plan for FY 2009, the
Performance Audits Division conducted this audit to answer the following questions:

   •   Did USAID activities for the prevention of mother-to-child transmission of HIV
       contribute toward meeting mandated targets, and what has been the impact?

   •   Did USAID procure, store, and distribute commodities for the prevention of
       mother-to-child transmission of HIV to help ensure that intended results were
       achieved, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      3
AUDIT FINDINGS
Did USAID activities for the prevention of mother-to-child
transmission of HIV contribute toward meeting mandated targets,
and what has been the impact?
At the four missions audited, the Prevention of Mother-to-Child Transmission (PMTCT)
activities contributed toward meeting the following mandated targets:
    •   Service outlets provided the minimum package of PMTCT services.
    •   Pregnant women received HIV counseling and testing for PMTCT and received
        their test results.
    •   HIV-infected pregnant women received antiretroviral prophylaxis for PMTCT in a
        PMTCT setting.
    •   Health workers were trained in the provision of PMTCT services according to
        national and international standards.
    •   HIV-positive pregnant or lactating women received food and nutritional
        supplementation in a PMTCT setting.
The results have had a positive impact on preventing the transmission of HIV from
pregnant women to their children. For example, it is possible to roughly estimate the
number of infections of HIV averted by simply multiplying the number of patients
receiving the HIV drugs by the efficacy of the treatment. In a recent annual President’s
Emergency Plan for AIDS Relief (PEPFAR) report, the Office of the Global AIDS
Coordinator estimated that HIV prophylaxis has been effective in 19 percent of the cases
in which it has been administered. 2 This indicates that, at an empirical level, the PMTCT
activities had a positive effect. Other examples that indicate a positive impact include
senior host nation government officials testifying to the importance of the program and
interviews with women who expressed satisfaction with the services received.

While PMTCT activities have had a positive impact, in each of the four countries audited,
USAID was not able to measure the impact of the PMTCT activities. Below are
examples of reasons for the inability to measure impact:

    •   In Ethiopia, the audit team noted that not many Ethiopian women are willing or
        able to obtain prenatal care. Until this challenge is addressed, the mission will
        have difficulty showing a positive impact from program activities. Additional
        challenges in Ethiopia include a poor health care system and the mission’s
        inability to retain Foreign Service Nationals working on the PEPFAR program
        because of salary limits.

    •   In Kenya, the audit team found that mission and implementing partner officials
        had not developed evaluative tools such as performance indicators at the

2
  The percentage reflects an estimate that current PMTCT interventions are reducing the rate of
transmission of HIV from 35 percent to 16 percent, equating to a 53 percent decrease in
transmission rate.


                                                                                             4
       outcome level to measure the overall impact of PMTCT activities. Certain
       constraints hindered the collection of impact data in Kenya. For example, early
       infant diagnosis of HIV is a key tool in measuring PMTCT of HIV effectiveness;
       however, only three laboratories in Kenya can process early infant diagnosis
       samples.

   •   In Nigeria, the mission was not able to measure impact because HIV/AIDS
       testing of infants did not begin until 2008 and no baseline data were available for
       earlier years. Infants were not tested because (1) Nigeria lacked a national
       policy to support infant testing until 2007, and (2) the required technology was
       not widely available.

   •   In Tanzania, USAID does not have the financial or technical resources to
       measure the number of averted HIV infections directly. Further, the audit team
       noted that only four teaching hospitals in Tanzania have the ability to perform the
       advanced test necessary to detect the virus in infants. In addition, only a small
       percentage of mothers bring their babies back after delivery for HIV testing,
       limiting the number of babies that can be tested.

Further, at the four countries visited, USAID’s PMTCT activities faced numerous
challenges such as data quality deficiencies, incomplete performance management
plans, lack of technical oversight, and failure to conduct thorough site visits.

Data Quality – Data quality deficiencies were present at three of four USAID missions
audited: Ethiopia, Nigeria, and Tanzania. Examples of data quality deficiencies include
failure to perform data quality assessments in Ethiopia, problems with both data
accuracy and the data collection system in Nigeria, and implementing partners
inaccurately reporting on PMTCT indicators in Tanzania. Details are discussed below:

   •   In Ethiopia, USAID did not perform a planned data quality assessment because
       other priorities prevented any assessment from being carried out. The audit
       team found multiple examples of data problems during field testing. For
       instance, audit testing identified problems with data reported for the indicator
       “number of pregnant women who received HIV counseling for prevention of
       mother-to-child transmission and received their test results.” Specifically, the
       audit found instances where the reporting for this indicator was underreported or
       overreported when compared with records, such as one instance where a health
       center reported 5 women in July 2008 who received HIV counseling for PMTCT
       and received test results, whereas the records showed 195. In another instance,
       a health center reported a total of 384 women from June through September
       2008, but the records showed 348 women.

   •   In Nigeria, the audit found problems with both the accuracy of the data reported
       and the system of data collection. Auditors verified the accuracy of reported
       results by implementing partners by performing spot checks of the data; reported
       results were significantly misstated at 5 of the 18 sites. For example, the health
       facility in Bankpor overreported by 11 percent the number of pregnant women
       who were counseled and tested from July through September 2008. The site
       reported that 336 pregnant women had been counseled and tested, but the
       supporting documentation showed that only 299 women had received these



                                                                                        5
       services. On average, results were misstated by 16 percent.

   •   In Tanzania, two implementing partners (the Elizabeth Glaser Pediatric AIDS
       Foundation and EngenderHealth) reported data that did not reconcile with patient
       registers and monthly reports reviewed by the audit team.

Performance Management Plans – USAID/Ethiopia and USAID/Tanzania did not
maintain complete and updated performance management plans.

USAID/Ethiopia’s most recent performance management plan was approved in
September 2004 and had not been updated to reflect the mission’s current PMTCT
activities. USAID/Ethiopia mission staff stated that they had not developed a
performance management plan because the Department of State’s Office of the Global
AIDS Coordinator did not require one. The mission noted that updating its outdated
performance management plan would result in a great deal of extra work and it
questioned the necessity of the plan, given that the State Department does not require a
performance management plan and other HIV/AIDS partners, such as the Centers for
Disease Control and Prevention, are not required to develop such plans. However,
USAID policy specifically requires that missions develop performance management
plans.

USAID/Tanzania’s performance management plan for its FY 2008 PMTCT program did
not address the quality of the results data reported by implementing partners, nor did it
include all indicator reference sheets, which constitute the basic format for outlining the
monitoring controls to manage the individual performance indicators. The mission
attributed this problem to a staff shortage and the rapid expansion of the program.

Technical Oversight – USAID/Kenya’s mission specialist in PMTCT of HIV was not
able to devote her entire time to the program, and as a result, the program did not
receive the attention it warranted. In addition to serving as the mission’s technical expert
on PMTCT during FY 2008, this official also served as the PMTCT lead person on the
interagency technical team; contracting officer’s technical representative for the AIDS,
Population and Health Integrated Assistance Program II Nairobi/Central program; activity
manager for a smaller health initiative; and liaison officer for a sustainable health care
project. This official also assisted the monitoring and evaluation specialist in the Office of
Population and Health in addressing HIV/AIDS-related data quality issues. Given this
workload, the PMTCT specialist estimated that she had spent only half of her time on
PMTCT issues in FY 2008. As a result, she believed that the PMTCT program was being
underserved because it warranted full-time attention.

Site Visits – USAID/Kenya and USAID/Tanzania did not conduct complete and timely
site visits and trip reports because of limited staff faced with competing priorities. In
Kenya, the audit team found that only three trip reports were completed for eight site
visits made by the PMTCT specialist during FY 2008. In Tanzania, the audit team noted
that while some site visits were performed, the mission did not maintain documentation
to show that data validity and reliability were verified during these site visits, especially
important given that implementing partners were reporting deficient data to the mission.

Recommendations were made at the mission level to address the problem areas noted
above. Therefore, this report does not make any recommendations.



                                                                                            6
Did USAID procure, store, and distribute commodities for the
prevention of mother-to-child transmission of HIV to help ensure
that intended results were achieved, and what has been the
impact?
USAID procured, stored, and distributed commodities for PMTCT activities to help
ensure that intended results were achieved and the impact has been positive for the four
missions audited. However, problems with commodity management were reported in
each of the four countries audited.

USAID’s PMTCT activities achieved the intended results in the area of procurement
during the FY 2008 reporting period in all four countries audited. These commodities
included HIV test kits and HIV prophylaxis for the individuals who tested positive.
Without these commodities, PMTCT services could not have been provided. However,
shortages of some commodities were reported in three of the four countries audited.

Once the commodities arrived in country, they were inventoried, segregated, stored, and
distributed to intended beneficiaries as needed. In Ethiopia, Kenya, and Tanzania, the
warehouses that stored the commodities were found to be clean, secure, and well
organized. However, problems were found with the inventory systems being used at the
implementing partner level or the service provider level or both. 3

In spite of these problems, PMTCT activities had a positive impact, as pregnant women
had access to test kits to determine their HIV status. If results were positive, they were
further able to attain antiretroviral prophylaxis treatments to prevent the transmission of
HIV to their unborn children. Without USAID providing the commodities, these services
could not have been provided.

Below are examples of commodity management problems and inventory records at the
four selected missions: Ethiopia, Kenya, Nigeria, and Tanzania.

Commodity Management – Commodity management problems occurred in Ethiopia,
Kenya, and Nigeria. Examples include shortages of commodities in stock in Ethiopia, a
weak distribution system in Kenya, and a lack of compliance with storage guidelines in
Nigeria. Details are discussed below:

    •   In Ethiopia, five out of six health centers visited experienced shortages of
        opportunistic-infection drugs, lab supplies, and some types of HIV test kits.
        Auditors found that the shortages occurred because no system was in place to
        ensure that adequate amounts of health commodities are kept in stock. Without
        accurate information on the commodities on hand and projected future
        consumption at each health facility, the difficulty of maintaining adequate
        amounts of commodities at the right places, when needed, could limit the positive
        impact of program activities.


3
  Implementing partners are under contract with USAID to carryout the PMTCT program. The
service providers are the health clinics in the field that actually use the commodities. They may
be either private, and therefore, are under contract with the implementing partner, or public, and
therefore, are under the host country government.


                                                                                                7
    •   In Kenya, auditors observed that a main implementing partner had weak
        warehousing and distribution systems. The warehouses did not meet standards
        of distribution recommended by the World Health Organization, thereby
        compromising the quality of medical goods. 4 Furthermore, its outsourced
        distributor also did not follow good distribution practices, as evidenced by the fact
        that its commodity delivery system was much slower than that of its private
        sector counterparts.

    •   In Nigeria, auditors visited several storage facilities where minimum storage
        conditions were not being met. Antiretroviral drugs are sensitive to moisture and
        should be stored in dry, well-lit, ventilated storerooms. This was not always the
        case, as several sites were dimly lit, boxes were stored on the floor or outside, 5
        and room temperatures tended to exceed the maximum recommended storage
        temperature. 6 Furthermore, the facilities were not secure and neither damaged
        nor expired commodities were being separated from inventory regularly.

Inventory Records – Poor inventory record keeping at the service provider level
occurred at all four missions audited. Examples include incomplete stock cards in
Ethiopia, mislabeling of commodities in Kenya, a lack of regular inventory counts in
Nigeria, and poor record keeping in Tanzania. Details are discussed below:

    •   In Ethiopia, auditors found that stock cards were not always properly filled out to
        provide a complete and accurate record of status of commodities on hand. Stock
        cards did not include beginning inventory, quantity and value of items received,
        expiration dates, items disbursed or consumed, and ending inventory.
        Furthermore, stock cards were not updated to account for commodities on hand.
        The audit found that these problems contributed to a shortage or oversupply of
        specific commodities at the health centers visited.

    •   In Kenya, auditors found test kits mislabeled as antiretroviral medication.
        Although the service provider was aware of the mislabeling, the label should
        have been completely removed from the box and a corrected label put in its
        place. Those corrections would have eliminated the risk that warehouse staff
        might unknowingly deliver test kits to locations that had requested antiretroviral
        drugs. It was specifically noted that the service provider relied on untrained staff
        who lacked the requisite skills to manage their areas of responsibility. 7

    •   In Nigeria, auditors found that the inventory records that were relied on to make
        ordering decisions and forecasts of commodities were inaccurate. No
        documented indication of monthly physical inventory counts could be found at the
        sites visited. In addition, ending balance amounts on stock cards at eight of the

4
  This statement is based on a report commissioned by the Kenyan Minister for Medical Services
in October 2006.
5
  Axios, an implementing partner in Nigeria, ignored storage guidelines to the point that it stored
some 150 boxes of drug commodities outside the warehouse, exposed to rain and heat and
susceptible to theft.
6
  USAID’s maximum recommended storage temperature is 77 degrees Fahrenheit. Temperatures
were found at Magajiya and Suleja warehouses to be 90 and 82 degrees, respectively.
7
  This statement is based on a report commissioned by the Kenyan Minister for Medical Services
in October 2006.


                                                                                                 8
        nine health facilities and at warehouses visited did not match the auditor’s test
        counts. 8

    •   In Tanzania, auditors found that 5 of 14 service providers sampled lacked
        inventory records for commodities, while even those that had inventory records
        were not always updating them when the commodities were received and
        dispensed. 9 Without adequate inventory records, the providers’ pharmacy staffs
        could not determine the current level of commodities on hand, resulting in
        significant variances between physical counts and inventory records.
        Consequently, the providers could not determine whether any commodities had
        been lost or stolen or whether more needed to be ordered.

Recommendations were made at the mission level to address the problem areas noted
above, and therefore, this report does not make any recommendations.




8
  The total of all missing and unsupported inventory at the sites visited was approximately
$40,000.
9
  Some records had not been updated for 3 years.


                                                                                         9
EVALUATION OF
MANAGEMENT COMMENTS
USAID’s Bureau of Global Health, Office of HIV/AIDS, concurred with the findings in the
draft audit report. Management comments are presented in their entirety in appendix II.




                                                                                    10
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. The audit was designed to determine whether (1) USAID activities for the
Prevention of Mother-to-Child Transmission (PMTCT) of HIV contributed toward meeting
mandated targets, and to assess what impact the activities have made; and (2) USAID
procured, stored, and distributed commodities for the PMTCT of HIV to help ensure that
intended results were achieved, and to assess the impact the activities have made.

The report summarized the results of audit work conducted at four overseas missions as
follows:

   •   Ethiopia—at Washington DC, because it was a pilot audit, and at the mission and
       various sites from November 17 to December 4, 2008

   •   Kenya—at the mission and various sites from February 17 to March 5, 2009

   •   Tanzania—at the mission and various sites from March 9 to April 3, 2009

   •   Nigeria—at the mission and various sites from April 27 to May 27, 2009

These four countries received approximately $39 million in fiscal year (FY) 2008 for
PMTCT activities. In planning and performing the audit, we reviewed and assessed the
effectiveness of internal controls related to the President’s Emergency Plan for AIDS
Relief (PEPFAR) activities for PMTCT, specifically gaining an understanding of
applicable management controls and testing the effectiveness of controls.

Methodology

To answer the audit objectives, we reviewed mission documentation related to managing
and monitoring the PEPFAR program, country operational plans, performance
management plans, implementing partner agreements, performance measures, actual
performance results, certifications required under the Federal Managers’ Financial
Integrity Act of 1982, financial reports, data quality assessments, and trip reports
prepared by mission officials. We also interviewed mission officials, implementing
partners, individuals receiving treatments, and host nation government officials. We
reviewed country operational plans for FY 2008 and compared plan target levels with
actual results reported.




                                                                                       11
We visited clinics in all four countries to observe that the clinics existed and were
providing services to women and to observe the use of HIV antiretroviral medications.
Also, we verified whether reported results reconciled with to the records implementing
partner used to report results.

At the warehouses, we observed storage conditions, conducted test counts of selected
antiretroviral drugs and test kits, and interviewed responsible staff. We also conducted
test counts, when possible, and examined commodities for expiration dates.

We reviewed applicable laws and regulations—as well as USAID policies and
procedures pertaining to USAID’s PMTCT program—including Federal Managers’
Financial Integrity Act of 1982 certifications, Automated Directives System chapters 202
and 203, and supplemental guidance.




                                                                                     12
                                                                            APPENDIX II



MANAGEMENT COMMENTS

                                                                           March 2, 2010




TO:            IG/A/PA, Steven H. Bernstein, Director

FROM:          GH/OHA, Robert Clay, Director /s/

SUBJECT:       Management Comments on the Worldwide Audit of PEPFAR-Funded
               Activities and Commodities for the Prevention of Mother-to-Child
               Transmission of HIV (Report No. 9-000-10-00X-P)


This memorandum transmits the Bureau for Global Health, Office of HIV/AIDS
(GH/OHA) response to the draft audit report titled “Worldwide Audit of PEPFAR-Funded
Activities and Commodities for the Prevention of Mother-to-Child Transmission of HIV”
audit report no. 9-000-10-00X-P, dated March, 2010.

GH/OHA appreciates the work of the Office of the Inspector General (OIG) in this audit,
and concurs with the findings as stated in the report. We expect the report to be useful
in guiding future efforts in the area of Prevention of Mother-to-Child Transmission of HIV,
and look forward to continuing to work with the Inspector General to ensure the
efficiency and effectiveness of all of USAID’s PEPFAR-related programming.

As a capstone report summarizing a series of OIG audits previously conducted in
Ethiopia, Kenya, Nigeria, and Tanzania, the subject report does not contain any
recommendations or action items for GH. GH/OHA has met with OIG to discuss the
findings, suggest clarifications, and offer general input, and has no comments on the text
of this final summary report.

We would like to thank the Office of Inspector General for the courtesies extended to our
staff and the cooperative manner in which the audit was undertaken.




Cc: Michael W. Clinebell, Acting Director, IG/A/PA




                                                                                        13
                                                                       APPENDIX III




            Audit Reports Issued
        The following reports were issued as part of this worldwide audit.
               The reports are available on USAID/OIG’s Web site:
                 http://www.usaid.gov/oig/public/aud_usaid.htm


Report No. 9-663-09-008-P, Audit of USAID/Ethiopia’s PEPFAR-Funded Activities and
Commodities for the Prevention of Mother-to-Child Transmission of HIV, June 25, 2009.

Report No. 4-615-09-007-P, Audit of USAID/Kenya’s PERFAR-Funded Activities and
Commodities for the Prevention of Mother-to-Child Transmission of HIV, August 17,
2009.

Report No. 4-621-09-008-P, Audit of USAID/Tanzania’s PEPFAR-Funded Activities and
Commodities for the Prevention of Mother-to-Child Transmission of HIV, August 28,
2009.

Report No. 7-620-10-002-P, Audit of USAID/Nigeria’s PEPFAR-Funded Activities and
Commodities for the Prevention of Mother-to-Child Transmission of HIV, January 19,
2010.




                                                                                  14
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
